No. 21-119
IN THE

POSTMATES, LLC (F/K/A POSTMATES, INC.),
v.

Petitioner,

JACOB RIMLER & GIOVANNI JONES,
Respondents.
On Petition for a Writ of Certiorari
to the California Court of Appeal
BRIEF OF RETAIL LITIGATION CENTER, INC.
AS AMICUS CURIAE IN SUPPORT OF
PETITIONER
Deborah White
RETAIL LITIGATION
CENTER, INC.
99 M Street, SE
Washington, DC 20003

Eric F. Citron
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTEREST OF AMICUS CURIAE ............................. 1
SUMMARY OF ARGUMENT ..................................... 5
ARGUMENT ................................................................ 6
I.

The Status Quo Creates Intolerable
Inconsistency Across Jurisdictions................... 6

II. Additional Delay May Frustrate Effective
Review Of The Iskanian Rule ......................... 11
III. The Iskanian Rule Is Plainly Wrong .............. 16
CONCLUSION .......................................................... 21

ii
TABLE OF AUTHORITIES
Cases
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ........................................ passim
Contreras v. Superior Ct. of L.A. Cnty.,
275 Cal. Rptr. 3d 741 (Ct. App. 2021) ................... 14
Correia v. NB Baker Elec., Inc.,
244 Cal. Rptr. 3d 177 (Ct. App. 2019) ........... 3, 4, 10
DirecTV, Inc. v. Imburgia,
577 U.S. 47 (2015) .................................................. 12
EEOC v. Waffle House, Inc.,
534 U.S. 279 (2002) ................................................ 17
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) .................................... passim
Henry Schein, Inc. v. Archer & White Sales, Inc.,
139 S. Ct. 524 (2019) .............................................. 12
Iskanian v. CLS Transp. L.A., LLC,
327 P.3d 129 (Cal. 2014) ................................ passim
Kirtsaeng v. John Wiley & Sons, Inc.,
568 U.S. 519 (2013) .................................................. 1
Lamps Plus, Inc., v. Varela,
139 S. Ct. 1407 (2019) ............................ 9, 12, 13, 19
Magadia v. Wal-Mart Assocs.,
999 F.3d 668 (9th Cir. 2021) ............................ 15, 17
Preston v. Ferrer,
552 U.S. 346 (2008) ................................................ 19
Rivas v. Coverall N. Am., Inc.,
842 Fed. Appx. 55 (9th Cir. 2021)............ 8, 9, 11, 13
Rivera v. UHS of Del., Inc.,
705 Fed. Appx. 593 (9th Cir. 2017)........................ 12

iii
Rosales v. Uber Techs., Inc.,
278 Cal. Rptr. 3d 285 (Ct. App. 2021) ................... 14
Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) .................... 8, 9, 11, 12
South Dakota v. Wayfair, Inc.,
138 S. Ct. 2080 (2018) .............................................. 1
Valdez v. Terminix Int’l Co.,
681 Fed. Appx. 592 (9th Cir. 2017)........................ 10
Winns v. Postmates Inc.,
281 Cal. Rptr. 3d 460, 2021 WL 3046592
(Ct. App. 2021) ....................................................... 13
Rules
Sup. Ct. R. 37.6 ............................................................ 1
Other Authorities
Braden Campbell, Calif. Private AG Law:
Coming to a State Near You?, Law360 (Feb.
21, 2020), https://www.law360.com/articles/
1245815 .................................................................... 3

INTEREST OF AMICUS CURIAE 1
The Retail Litigation Center, Inc. (“RLC”) is the
only public policy organization dedicated to representing the retail industry in the judiciary. The RLC’s
members include many of the country’s largest and
most innovative retailers. They employ millions of
workers throughout the United States, provide goods
and services to tens of millions of consumers, and account for tens of billions of dollars in annual sales. The
RLC seeks to provide courts with retail-industry perspectives on important legal issues impacting its members, and to highlight the potential industry-wide consequences of significant pending cases. Since its
founding in 2010, the RLC has participated as an amicus in more than 150 judicial proceedings of importance to retailers. Its amicus briefs have been favorably cited by multiple courts, including this Court.
See, e.g., South Dakota v. Wayfair, Inc., 138 S. Ct.
2080, 2097 (2018); Kirtsaeng v. John Wiley & Sons,
Inc., 568 U.S. 519, 542 (2013).
The question presented in this petition is of significant interest to the RLC’s members, who have long
believed that this issue merits the Court’s review and
recently urged the Court to grant certiorari in another
case presenting the same question. See infra p.4 (noting the RLC’s previous support for the Court’s review
on this issue). The California Supreme Court’s
Counsel for all parties have consented to the filing of this
brief and received timely notice of its filing. Pursuant to this
Court’s Rule 37.6, amicus states that this brief was not authored
in whole or in part by counsel for any party, and that no person
or entity other than amicus, its members, or its counsel made a
monetary contribution intended to fund the preparation or
submission of this brief.
1

2
decision in Iskanian v. CLS Transportation Los Angeles, LLC, 327 P.3d 129 (Cal. 2014), prevents employers
and employees from agreeing that all of their potential
claims against each other should be resolved through
bilateral arbitration; employees are deprived of the
power to make such an agreement with respect to potential claims under the California Private Attorneys
General Act (“PAGA”), no matter how much they
might want to trade the right to bring that representative claim for other benefits. Given their rights under
federal law, this outcome should be understood as bad
for employers and employees alike.
In effect, California has placed its own labor-law
claims outside the scope of the Federal Arbitration Act
(“FAA”) by simply designating a part of the recovery
as the property of the State. And that is a huge proportion of national labor-law claims: Current U.S. Bureau of Labor Statistics figures show that over 11% of
all nonfarm employees in the United States are in California. That means that, when it comes to one of the
most critical areas of law for retailers in the Nation’s
most economically critical State, there might as well
not be an FAA at all.
The Court should not permit this divergence between California and the rest of the States to remain
in place. In practice, the situation is no different from
one in which there is a deep and entrenched circuit
conflict: Nationwide firms like the RLC’s members
must learn to accommodate themselves to one set of
rules in one jurisdiction, and a different set in another,
with no end in sight, despite an on-point federal statute prescribing a single nationwide approach to enforce freely chosen arbitration agreements. And as the
petitioner ably explains, the Iskanian rule is in the

3
teeth of this Court’s decisions in Epic Systems Corp. v.
Lewis, 138 S. Ct. 1612 (2018), and AT&T Mobility LLC
v. Concepcion, 563 U.S. 333 (2011), precisely because
it exempts a set of representative claims from the force
of the FAA even though those claims are in effect indistinguishable from the other “class” or “collective”
claims that this Court has prevented States from placing off limits when agreeing to individualized arbitration. Pet. 19-20. Absent this Court’s intervention, the
only way a uniform, nationwide approach to individualized arbitration agreements will emerge is if other
States follow California’s lead and begin ignoring this
Court’s precedents as well. 2
Accordingly, the Court should not delay review on
this issue any longer. Indeed, this is not the first petition filed for the first conference of the upcoming Term
raising the question of whether the Iskanian rule
should be abrogated by this Court as inconsistent with
the FAA. As in this case, the petitioner in Viking River
Cruises, Inc. v. Moriana, No. 20-1573, asked this Court
to consider whether, contrary to Iskanian’s view, “the
Federal Arbitration Act requires enforcement of a bilateral arbitration agreement providing that an employee cannot raise representative claims, including
under PAGA.” 20-1573 Pet. i. And the California
Court of Appeal’s decision below relied on the same
precedent as the decision in Viking River Cruises—
namely, Iskanian and Correia v. NB Baker Electric,
Inc., 244 Cal. Rptr. 3d 177, 189-90 (Ct. App. 2019). In
This is not an idle concern: At least seven States have
recently considered adopting PAGA-like statutes that mirror the
California model. Pet. 25 & n.2; see also Braden Campbell, Calif.
Private AG Law: Coming to a State Near You?, Law360 (Feb. 21,
2020), https://www.law360.com/articles/1245815.
2

4
both appeals, the California Court of Appeal refused to
reconsider Iskanian in light of Epic Systems, reiterating its view from Correia that Epic Systems resolved a
“different issue” than the PAGA question from Iskanian. Correia, 244 Cal. Rptr. 3d at 187; see also Pet.
App. 4a-6a; 20-1573 Pet. App. 5-6. And the petition in
Viking River Cruises raised markedly similar arguments in favor of certiorari as those presented here.
The RLC filed an amicus brief in support of the
petitioner in Viking River Cruises, arguing that this
Court should review Iskanian in light of its FAA precedent. The Viking River Cruises petition is pending
for review at the first conference of the upcoming
Term, and this petition is likely to be considered at the
same time. The RLC is thus filing this brief supporting the petitioner as amicus curiae here for the same
reasons it supported the petition in Viking River
Cruises. Importantly, the California Supreme Court
continues to show no interest in reconsidering Iskanian. See supra pp.3-4. And the petitioner here
ably explains why any further delay in granting review is not justified. Pet. 20-23. Thus, the RLC
strongly believes that the Court should grant review
in at least one of these cases and ensure that this important question of federal preemption receives the
plenary review it requires. In so doing, this Court
should reverse the Iskanian rule and restore nationwide consistency to the rule that the FAA protects the
rights of both employers and employees to affirmatively choose bilateral arbitration over other means of
resolving their disputes.

5
SUMMARY OF ARGUMENT
This brief includes three central points.
First, we explain that the status quo—with California alone permitted to insulate representative
claims from bilateral arbitration agreements—creates
intolerable inconsistency across different jurisdictions
of the precise kind this Court routinely addresses
through a petition for certiorari. This inconsistency is
unfair to businesses (and employees) in California visà-vis their competitors in other States, and it is inconsistent with the nationwide policy Congress adopted in
the FAA. And, indeed, because of different approaches
in the state and federal courts in California, the status
quo causes the exact same arbitration agreement between the same two parties to have different consequences depending on where suit is brought. This is
the kind of tension within the application of federal
law that is appropriate for this Court to resolve.
Second, we emphasize that, if the Court is interested in reviewing the Iskanian rule—and it should
be—then the time to do so is now. The settlement dynamics created by California’s carve-out from the FAA
for PAGA claims means that fewer and fewer vehicles
will reach this Court—particularly as companies begin
to believe that this Court will not grant review at the
end of the line. And the vehicles that do reach this
Court are likely to present esoteric twists on the question presented, rather than the direct challenge to Iskanian that is well-presented here. Accordingly, the
Court should not delay any further in considering
whether the California courts’ approach to arbitration
for PAGA claims conflicts with this Court’s precedents
and the congressional policy embodied in the FAA. Indeed, the fact that two similar and strong vehicles are

6
before the Court now indicates both that this issue remains important to many parties and that the time to
take this issue up is now, before (multiple) denials discourage any future defendants from starting down the
long and uncertain road to this Court’s review.
Third, and finally, we explain that California’s approach is clearly incorrect. It violates not only this
Court’s recent precedents like Concepcion, but even
older cases that stand for the uncontroversial proposition that States cannot exempt particular kinds of
claims from bilateral arbitration agreements without
running afoul of the FAA. Nor is there any substance
to the excuse that these claims partially “belong” to the
State: PAGA leaves the claim entirely in the hands of
the employee and is indistinguishable in practice from
a statute allowing employees to buy a “Get Out of Your
Bilateral Arbitration Agreement Free” card at the
price of 75 percent of their winnings. The tension between Iskanian and this Court’s cases is palpable, and
ultimately requires resolution.
Accordingly, this
Court should grant certiorari, and resolve that tension
now in favor of its own well-settled approach.
ARGUMENT
I.

The Status Quo Creates Intolerable
Inconsistency Across Jurisdictions.

Nationwide companies like the national retailers
who are members of the Retail Litigation Center depend on nationwide rules to regularize their business
practices across jurisdictions. To be sure, not every
question has a nationwide answer: Some questions,
including some substantive employment law issues,
are set by state laws that vary from one location to the
next. But that is not how congressional policymaking

7
is supposed to play out. When Congress decides to create a single national regime for something like arbitration—and does so with expressly preemptive language like the FAA contains—businesses have every
right and every reason to believe that the chosen policy
will prevail in every jurisdiction where they operate.
Indeed, the Supremacy Clause demands it.
Typically, the main obstacle to that result is a lack
of uniformity in the courts that interpret a federal law.
For example, if the federal courts of appeals do not interpret a statute the same way—or do not resolve tensions between multiple statutes the same way—then
the public policy outcome created by the very same
congressional actions may be different or even opposite in different parts of the country. See, e.g., Epic
Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1620-21 (2018)
(describing circuit disagreement and nationwide “confusion” that precipitated grant of certiorari).
That kind of disagreement creates at least two related problems that this Court exists in part to resolve.
The first—which is especially important in the business context—is the prospect of interfirm unfairness:
If the rule in the Fourth Circuit is good for certain
businesses, and the opposite approach in the Ninth
Circuit is bad for them, then local firms subject to the
Fourth Circuit’s rule will have a leg up on their competitors in the Ninth Circuit, and vice versa. The second—which can be particularly problematic for nationwide firms—is confusion: The result of a certain
business practice may be one thing in one jurisdiction
and another elsewhere, even though that practice
should ostensibly be governed everywhere by the same
federal statute. This is, of course, why this Court looks
primarily to the presence of a disagreement among the

8
circuits in deciding whether to grant a petition for certiorari—because resolving these disagreements and
restoring a uniform meaning to nationwide congressional policies is the right approach to interpreting national legislation, and something only this Court can do.
To be sure, there is no prospect of a true “circuit
split” arising over the rule under Iskanian v. CLS
Transportation Los Angeles, LLC, 327 P.3d 129 (Cal.
2014), and the application of the FAA to California’s
PAGA. See also Pet. 20-23. But that is only because
PAGA is an esoteric statute and both the California
Supreme Court and Ninth Circuit have already erroneously decided to uphold the Iskanian rule notwithstanding Epic and AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011). See Pet. App. 5a-6a (California
Court of Appeal concluding that Iskanian remains
good law after Epic); id. at 1a (California Supreme
Court denying review); Sakkab v. Luxottica Retail N.
Am., Inc., 803 F.3d 425, 439 (9th Cir. 2015) (“[T]he Iskanian rule does not conflict with the FAA[.]”); Rivas
v. Coverall N. Am., Inc., 842 Fed. Appx. 55, 56-57 (9th
Cir. 2021) (holding that Epic did not “expand[] upon
Concepcion in such a way as to abrogate Sakkab”).
These rules are entrenched and are unlikely to
change, no matter how clearly this Court’s existing
cases may signal that California’s approach to PAGA
is a poor fit for its FAA jurisprudence, unless this
Court affirmatively steps in. Indeed, the strong parallels between the decision below and the decision of the
California Court of Appeal in the Viking River Cruises
petition indicates that the view of the California courts
is entirely settled on this matter, and that no additional benefit can come from waiting.

9
The same is true in the Ninth Circuit: In one recent case, that court rejected a motion to compel arbitration based on its pre-existing precedent, while
Judge Bumatay concurred to stress that “the writing
is on the wall that the Court disfavors our approach.” 3
Rivas, 842 Fed. Appx. at 58 (Bumatay, J., concurring);
see also id. at 59 (calling Sakkab “good—but severely
hobbled—law”). Likewise, the California Court of Appeal in Viking River Cruises seemed to recognize that
the Iskanian rule is skating on thin ice given that this
Court’s cases appear arrayed against it. See 20-1573
Pet. App. 5 n.1. And yet, like the en banc Ninth Circuit, the California Supreme Court appears uninterested in reconciling its approach with what this Court
has said about state circumvention of bilateral arbitration agreements in Concepcion, Epic, and Lamps
Plus, Inc., v. Varela, 139 S. Ct. 1407 (2019). The rule
that applies to PAGA is therefore set, and not susceptible to any kind of disagreement among the lower
courts—even if judges on those courts (correctly) recognize that the rule is wrong. This apparent conflict
between the FAA and PAGA claims is no minor issue—as the petition explains, PAGA claims are climbing in California, including in the immediate aftermath of Iskanian. Pet. 23-25 (noting that the number

The defendant in Rivas has recently signaled its intent to
seek certiorari from this Court, which resulted in a stay of the
mandate in that appeal. See Rivas v. Coverall N. Am., Inc.,
No. 20-55140, Dkt. 46 (9th Cir. Apr. 15, 2021). That forthcoming
petition might present another appropriate vehicle for this Court
to consider abrogating Iskanian, although there is the risk that
the question presented might not be as precisely isolated as the
question presented in this case and Viking River Cruises.
3

10
of PAGA filings doubled after Iskanian and that more
than 15 PAGA notice letters now are filed daily).
This is not to say that there is not some important
confusion created by the Iskanian rule. For example,
while the Ninth Circuit and California Supreme Court
apparently agree that PAGA claims cannot be forced
into bilateral arbitration, they disagree about whether
a representative PAGA claim must remain in court (as
the state courts have held) or are instead eligible for
representative arbitration (as the federal courts hold).
Compare, e.g., Correia v. NB Baker Elec., Inc., 244 Cal.
Rptr. 3d 177, 189-90 (Ct. App. 2019) (holding that,
“[w]ithout the state’s consent, a predispute agreement
between an employee and an employer cannot be the
basis for compelling arbitration of a representative
PAGA claim because the state is the owner of the
claim,” and identifying contrary conclusions in local
federal courts); with, Valdez v. Terminix Int’l Co., 681
Fed. Appx. 592, 594 (9th Cir. 2017) (reaching opposite
conclusion and holding that “PAGA claims are eligible
for arbitration”). Accordingly, even within California,
businesses face uncertainty about what kind of agreement they are making with their employees: No matter what the contracting parties want, their arbitration agreements are chameleons whose colors will only
be determined once the forum chosen for a future
PAGA claim is known.
Meanwhile, although a traditional circuit split
over the Iskanian rule may be impossible, the status
quo is not at all dissimilar to the kind of disagreement
this Court ordinarily resolves. As it stands, it is possible for employers and employees in essentially every
other State in the Union to take the FAA at face value
and agree that any dispute that arises between them

11
will head to bilateral arbitration rather than being
pursued as a class or representative matter (or, really,
any kind of matter) in court. But that isn’t the rule in
California.
There, and only there, the same arbitration agreement—one that the employee freely chose in the clearest possible way and that expressly forecloses the litigation of representative “private attorney general”
claims in court—will have no effect. This means retailers with employees in California do not benefit
from the federal policy favoring arbitration agreements under the FAA in the same way as their competitors located exclusively in other States. And it
likewise means that, despite the FAA’s guarantee of
uniformity, nationwide retailers cannot count on the
same outcome from the same agreement if an employee’s complaint arises in California rather than
New York. Indeed, as explained above, they cannot
even count on the same agreement between the same
two parties meaning the same thing in state and federal court. And that is just the kind of unfairness and
inconsistency that this Court should grant certiorari
to correct.
II. Additional Delay May Frustrate Effective
Review Of The Iskanian Rule.
As the petition makes clear, there have been very
strong arguments against the Iskanian rule dating
back to this Court’s decision a decade ago in Concepcion. See Pet. 6-14, 17-20. Indeed, federal judges have
given powerful voice to those same arguments, including Judge N.R. Smith in Sakkab, see 803 F.3d at 443
(N.R. Smith, J., dissenting), and more recently Judge
Bumatay in Rivas. Until recently, the obvious tension
Judge Bumatay identified in Rivas has given

12
companies facing an ever-surging wave of PAGA demands some hope that either the California Supreme
Court or the Ninth Circuit might see the error in their
approaches and reconsider in light of this Court’s repeated precedents—every one of which has underscored Concepcion’s firm insistence that States not
frustrate parties’ access to bilateral arbitration agreed
to by the parties ex ante. And, to this point, that has
kept a steady stream of potential PAGA vehicles before this Court.
But the longer this Court makes that river run,
the greater the chance that it will eventually run dry.
In this regard, each unsuccessful effort to encourage a
critical self-examination by the state and federal
courts in California, and to seek review of their obstinacy in this Court, breeds more and more skepticism
that the next effort will prevail (while simultaneously
breeding more and more obstinacy in the California
state and federal courts). After this Court denied review in Iskanian and the divided Ninth Circuit
adopted its rule in Sakkab, both courts were asked to
reconsider after DirecTV, Inc. v. Imburgia, 577 U.S. 47
(2015). Both declined in the most summary fashion.
See, e.g., Rivera v. UHS of Del., Inc., 705 Fed. Appx.
593 (9th Cir. 2017) (declining to reconsider Sakkab in
two-paragraph, unpublished decision). And the same
pattern has now been repeated with Epic and Lamps
Plus. 4 See Pet. 21-22 (listing recent examples of both
4 The California Court of Appeal rejected a challenge to
Iskanian based on Epic, Lamps Plus, and Henry Schein, Inc. v.
Archer & White Sales, Inc., 139 S. Ct. 524 (2019), as recently as
July 20, repeating its earlier conclusion that none of those cases
addressed the “same issue concerning PAGA waivers decided in

13
the California Supreme Court and the Ninth Circuit
declining to review its precedent in light of Epic and
Lamps Plus, including denying the petition for rehearing en banc in Rivas last April). If this latest effort to
obtain this Court’s review comes to naught, the Court
can be confident that the lower courts will see no reason to change their ways, and the companies facing
those courts will be appropriately discouraged from
trying the same tactic again and again.
That is particularly so because running doomed
motions to compel arbitration up the flagpole in the
unfriendly California courts—the price of admission
for an uncertain certiorari petition in this Court—is a
costly proposition. It requires a motion and reply in
the trial court, an appeal brief and reply in the California Court of Appeal, and a petition to the California
Supreme Court, all of which must be carefully litigated
to avoid creating vehicle problems or independent and
adequate state law grounds for denial. All the while,
litigation on the underlying claims is typically moving
forward in the trial court, requiring companies to hire
additional counsel to pursue a motion to compel all the
way up the appellate court chain. Firms are thus unlikely to prosecute motions to compel for the mere
chance to try a recreational petition for certiorari. Instead, if they are likely to bring any such motions at
all (an increasingly uncertain proposition), they are
more likely to litigate cases in which there are esoteric
issues or special arguments for why a motion to compel
is appropriate notwithstanding PAGA and the Iskanian rule—cases that will not squarely raise the
Iskanian.” Winns v. Postmates Inc., 281 Cal. Rptr. 3d 460, 2021
WL 3046592, at *4-6 (Ct. App. 2021).

14
question about Iskanian this Court needs to decide. 5
Ideal vehicles like this one are certain to become fewer
and further between.
Moreover, the risk of disappearing vehicles increases when one recognizes that the whole point of
the PAGA demand that plaintiffs’ lawyers are increasingly leveling in these cases is usually to extract a favorable settlement at the earliest stages of litigation.
In that gambit, the cost of prosecuting the motion to
compel all the way up to this Court functions as just
one more cost imposed upon the defendant by a PAGA
claim that should have been foreclosed by the plaintiff’s ex ante election of bilateral arbitration. And
these costs are layered on top of the already astronomical statutory penalties that PAGA threatens, often in
connection with “violations” that would otherwise
have marginal if any monetary value to the “aggrieved” employees. The resulting pressure to settle
before any motion to compel arbitration becomes a vehicle for this Court to entertain is enormous.

For example, firms like Uber and Lyft have recently and
unsuccessfully sought to enforce their arbitration agreements by
arguing that those agreements require an arbitrator to decide the
threshold issue of whether the complainant is even a PAGAeligible “aggrieved employee” rather than an independent
contractor in the first place. See, e.g., Rosales v. Uber Techs., Inc.,
278 Cal. Rptr. 3d 285 (Ct. App. 2021); Contreras v. Superior Ct.
of L.A. Cnty., 275 Cal. Rptr. 3d 741, 748-52 (Ct. App. 2021)
(collecting other precedents). It would be counterproductive for
this Court’s first encounter with the Iskanian rule to occur in a
case where the parties and their briefing are fixated on such a
sub-sublevel issue. But more and more vehicles will take this
form as litigants become convinced that Iskanian itself is an
immovable object.
5

15
Indeed, just consider the decision confronting employers from a decision-theory perspective. On the one
hand, although the odds of losing are uncertain, the
stakes of litigating a representative PAGA claim to
judgment are fairly catastrophic because of the potential for massively multiplied statutory penalties. See,
e.g., Magadia v. Wal-Mart Assocs., 999 F.3d 668, 673
(9th Cir. 2021) (noting that district court awarded
$100 million in damages based on two alleged, technical errors on employee wage statements that the
court of appeals eventually found to comply with California law). Conversely, the costs associated with litigating a motion to compel all the way to this Court are
certain, while the apparent odds of success are already
low and seem to be declining. Meanwhile, settlement
is particularly attractive to plaintiffs’ attorneys (and
employers) because the parties can agree to structure
the settlement fund to be primarily aimed at (otherwise class-action-ineligible) non-PAGA claims, so that
more of the money finds its way to employees rather
than the State. Under those circumstances, economists would predict with confidence that businesses
will usually hedge against the long-tail risk of a huge
judgment and settle well before they sink unnecessary
costs into litigating an unlikely, multi-stage motion to
compel and petition for certiorari. And the RLC’s
members will regretfully tell you that those economists are right.
That message will only be amplified now that
there are two petitions pending for this Court’s consideration that present the same issue. At that point,
lawyers would have to advise potential petitioners
that—even though it had its choice of vehicles—this
Court declined the opportunity to consider whether

16
Iskanian conflicts with the FAA. The plain message
to the bar and the business community will be that
this Court is uninterested in reviewing the question
presented in these petitions, rather than concerned
about some aspect of the vehicle(s) before it. And that
will make it doubly hard for lawyers and businesses to
commit the resources necessary to bring this issue
back before this Court in a future vehicle.
The upshot is that, if this Court denies review in
Viking River Cruises and here, fewer and fewer motions to compel arbitration of PAGA claims will be
brought at all, let alone brought all the way to this
Court for review. Accordingly, if this Court believes
the Iskanian rule will ever merit its consideration, the
time for that consideration is now.
III. The Iskanian Rule Is Plainly Wrong.
The arguments that Iskanian conflicts with Concepcion and Epic are well developed in the petition and
in the opinions from respected federal judges already
cited above. See Pet. 17-20; supra pp. 11-12. But to
these already convincing sources, amicus must add the
following two points.
First, there is nothing but airy fluff underlying the
theory that Iskanian does not conflict with the FAA
because a PAGA claim is essentially “a dispute between an employer and the state” that is litigated by
the employee as an “agent” of California. See Iskanian, 327 P.3d at 151. Critically, the State remains
entirely free to litigate its own claims for violations
against any employer who violates California labor
laws, and in fact, the State declining to do so is a precondition for an employee to litigate a PAGA claim.
Pet. 6-10 (describing requirements for PAGA claims).

17
But after that, the employee has “a permanent, full assignment of California’s interest” in controlling the
suit, which is not true of traditional qui tam actions.
See, e.g., Magadia, 999 F.3d at 677; see also Pet. 17-18.
There is thus no sense in which PAGA claims should
be regarded as belonging to the State, nor is there any
way that an employee’s bilateral arbitration agreement could frustrate the State’s interest in actually
enforcing its laws. In this regard, the California Supreme Court seems to have taken the exact opposite of
the right lesson from this Court’s decision in EEOC v.
Waffle House, Inc., which holds only that a public enforcer can prosecute a claim against an employer itself
even when the underlying employee claim is subject to
a bilateral arbitration agreement. 534 U.S. 279, 29798 (2002).
Instead of being a claim belonging to the State and
prosecuted by the employee as a state agent, a PAGA
“claim” is better understood as a procedural mechanism that the State offers to aggrieved employees in
exchange for a bounty: Assuming the State passes on
its own right of first refusal, employees can litigate
claims otherwise belonging to themselves and others as
representative claims so long as they send 75 percent
of the returns to the State. That mechanism offends
the FAA twice over because it allows the employee to
avoid not only their own arbitration agreement but potentially the arbitration agreements of all the other
implicated employees as well, without the direct involvement of any state actor whatsoever. In effect,
PAGA is indistinguishable from a statute passed by
the California legislature allowing employees to buy a
“Get Out of Your Bilateral Arbitration Agreement
Free” card at the price of 75 percent of their winnings.

18
Such a law would obviously run afoul of the FAA’s prohibition against state-law rules that resist or are designed to frustrate the federal policy in favor of enforcing arbitration agreements. See Epic, 138 S. Ct. at
1622 (explaining that “‘defenses that apply only to arbitration’” or “that target arbitration … by more subtle
methods, such as by ‘interfering with fundamental attributes of arbitration’” are invalid under the FAA) (citation and brackets omitted).
Second, there should be no illusion that Iskanian
does anything other than invalidate agreements that
are expressly and consciously entered into by parties
who have every intention of choosing bilateral arbitration over representative actions before they know
what disputes might arise and whose leverage might
be increased by the ability to go to court. The agreements here contained a “conspicuous Mutual Arbitration Provision” that included a representative action
waiver combined with an option to submit an opt-out
form within 30 days of accepting the agreement. Pet.
14-15. That shows quite clearly that Iskanian rejects
bilateral arbitration as such and refuses to give force
to the employee’s ex ante agreement no matter how
knowing and intentional it might be. Indeed, a bilateral arbitration agreement could appear in a bespoke
employment contract drafted by a company’s incoming
general counsel to govern the terms of her own employment and it would still be unenforceable under Iskanian if that employee eventually discovers that it is
in her interest to bring a representative action rather
than to abide by the contract she drafted herself.
To state this result is to acknowledge its inconsistency with Concepcion, Epic, and FAA cases of even
older vintage. There can be no conceit that PAGA

19
claims should escape an agreement to substitute representative litigation with bilateral arbitration because of a neutral rule of state contract law, as in
Lamps Plus. See 139 S. Ct. at 1414-15. Nor is there
any argument that PAGA claims are exempted by a
federal agency’s interpretation of a different federal
statute, as in Epic. See 138 S. Ct. at 1629-30. Indeed,
unlike in Concepcion itself, the Iskanian rule does not
even purport to sound in a ground that “exist[s] at law
or in equity for the revocation of any contract,” FAA
§2, such as the unconscionability doctrine. See Concepcion, 563 U.S. at 341 (discussing but rejecting
plaintiffs’ argument that “the Discover Bank rule” that
Concepcion rejected had “its origins in California’s unconscionability doctrine”). 6 Instead, this is just the
“straightforward” situation where “state law prohibits
outright the arbitration of a particular type of claim,”
and so “[t]he conflicting rule is displaced by the FAA.”
Id. (citing Preston v. Ferrer, 552 U.S. 346, 353 (2008)).
Concepcion’s holding that state laws requiring classwide dispute resolution “stand as an obstacle to the accomplishment of the FAA’s objectives,” id. at 343, thus
helps to clarify the problem with Iskanian, but is not
even necessary to invalidate it.
Accordingly, the simple reality is that the Iskanian rule conflicts with the text of the FAA itself,
without the further gloss of obstacle preemption. And
Notably, the Iskanian rule is explicitly rooted in the same
state-law provisions that served as the basis for the Discover
Bank rule invalidated in Concepcion—California Civil Code
sections 1668 and 3513. See Iskanian, 327 P.3d at 148-49;
Concepcion, 563 U.S. at 340. That both rules derive from the
same state statutes is a particularly strong indication that they
must stand or fall together.
6

20
it should not be imagined that this conflict helps the
aggrieved employees who are initiating these complaints: Many would recover far more money for themselves if their lawyers were inclined to focus on their
bilateral claims (which can be brought through the efficient mechanism of arbitration), rather than representative claims for PAGA penalties that will amount
to little for the individual plaintiff and lots of fees for
their counsel. If California wants to ensure that these
claims are litigated, it has lots of options that do not
run afoul of Congress’s policy empowering employers
and employees to choose bilateral arbitration ex ante,
including hiring more enforcers and bringing the cases
itself or empowering other private individuals who
have not signed such agreements. But respect for the
parties’ agreement and the text of the FAA prevent the
State from merely stamping one kind of claim with its
imprimatur and thereby insulating it from a freely
chosen arbitration agreement.
In short, Iskanian is not correct under the text of
the statute or this Court’s precedents, and allowing it
to stand any longer is corrosive. This Court should
grant certiorari now, and reverse.

21
CONCLUSION
This Court should either grant this petition
outright or grant review in Viking River Cruises,
No. 20-1573, and hold this petition pending that case’s
disposition.
Respectfully submitted,
Deborah White
RETAIL LITIGATION
CENTER, INC.
99 M Street, SE
Washington, DC 20003

August 17, 2021

Eric F. Citron
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
ec@goldsteinrussell.com

